U.S. DEPARTMENT OF THE INTERIOR
Office of Inspector General




          Review of
 The National Park Service
       Implementation
 of the General Accounting
  Office Recommendations
   to Improve Travel Cost
        Management




Report No. E-EV-NPS-0053-2004   March 2004
                        United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                        Washington, D.C. 20240


                                                                        March 18, 2004



Committee on Appropriations,
Subcommittee on Interior and Related Agencies,
Ms. Deborah Weatherly, Clerk
U.S. House of Representatives
B-308 Rayburn House Office Building
Washington, DC 20515-6023

Dear Ms. Weatherly:

         In response to your request, we compared the travel costs provided to us by the
National Park Service (NPS) for its domestic and foreign travel in fiscal year (FY) 2003
with the amount it reported to the General Accounting Office (GAO) in FY 2002. We
also reviewed NPS implementation of three GAO recommendations in its February 2003
report, “Actions Needed to Improve Travel Cost Management,” and obtained information on
the foreign travel of NPS employees during FY 2003 and the first quarter of FY 2004.

        In summary, figures provided by NPS for FY 2003 indicated that its travel costs
declined by 13.8 percent in comparison to the figures it provided to GAO in FY 2002. We
found that NPS had not implemented any of the GAO recommendations. Additionally, in
FY 2003, NPS employees traveled to foreign locations 194 times at a cost of $324,000, and
headquarters NPS employees accounted for 41 percent of these travel costs. For the first
quarter of FY 2004, NPS employees traveled to foreign locations 21 times at a cost of $28,000,
and headquarters staff accounted for 60 percent of these travel costs.

        We attached a detailed analysis of the information we compiled in response to your
request. If you have any questions about this information, please call me at (202) 208- 5745.


                                                                Sincerely,



                                                                Earl E. Devaney
                                                                Inspector General
BACKGROUND
The General Accounting Office (GAO) issued a report on the National Park
Service (NPS) travel cost, entitled “Actions Needed to Improve Travel Costs
Management” in February 2003. In its report, GAO assessed the
availability of travel cost information at NPS, especially the costs of foreign
travel and conference attendance, because the Committee had difficulty in
obtaining this information. According to GAO, NPS reported that it
annually incurred total travel costs of approximately $39 million to $50
million during Fiscal Year (FY) 1999 through FY 2002. However, GAO
found that NPS did not know its actual costs for foreign travel or the travel
costs related to attending conferences because it did not routinely record this
information. Further, GAO reported that NPS’ travel accounting system was
not consistent with Federal Travel Regulations.

GAO made three recommendations to improve the accounting for travel
costs. In response to the report, the NPS concurred with the
recommendations and stated that it planned to “complete implementation of
an automated web-based travel system later this fiscal year [by September
2003], which will improve the travel data capturing process; including travel
type and purpose.” In addition, the Director issued an October 25, 2002,
memorandum that mandated a 17.5 percent reduction in travel costs for FY
2003.

We performed this review in accordance with the President’s Council on
Integrity and Efficiency Quality Standards for Inspections. We did not
review all aspects of NPS’ internal controls regarding travel expenses. NPS
officials could not provide assurance that all travel dollars were captured in
the data provided to us. We did not review all travel vouchers due to the
decentralization of NPS and that its travel records are located nationwide.
However, we were able to examine all foreign travel vouchers provided to us
as of February 23, 2004, for the Washington Area Service Office
(Headquarters).

At the request of the Subcommittee on Interior and Related Agencies, House
Committee on Appropriations, we compared the travel costs incurred by
NPS for both domestic and foreign travel in FY 2003 with the amount
reported by NPS to the GAO in FY 2002. We also reviewed the status of
actions taken by the NPS to implement the GAO recommendations. In


                                      2
addition, we present information on foreign travel by NPS employees during
FY 2003 and the first quarter of FY 2004 (Appendix 1).

Comparison of Travel Costs for FY 2002 and FY 2003
We compared the travel costs reported by NPS to the GAO for FY 2002 to
the travel costs reported by NPS to our office in FY 2003. The comparison
showed that NPS travel costs in FY 2003 were $6.7 million (13.8 percent)
lower than the GAO reported figures. Figure 1 and Figure 2 provide
detailed information by region for domestic and foreign travel.




                                NPS Domestic Travel by Region
                                    FY 2002 and FY 2003

 Region                                                2002 (GAO)1/            2003 (NPS)2/
 Alaska Region                                            $3,253,230             $2,897,537
 Intermountain Region                                      9,348,682              8,041,873
 Northeast Region 3/                                       5,873,181              4,740,673
 Mid-West Region                                           4,256,335              3,600,731
 National Capital Region                                   1,556,564                502,097
 Pacific West Region                                       8,765,782              6,875,536
 South East Region                                         5,395,575              3,713,745
    Subtotal regional offices                            $38,449,349            $30,372,192
 Washington, D.C.                                         10,512,566             11,708,990
  Total                                                  $48,961,915            $42,081,182

 1/
      Estimated travel costs provided to GAO by NPS - Report No. GAO-03-354.
 2/
  Reported actual travel costs provided to OIG by NPS.
 3/
      Formally Mid-Atlantic Region.
                                                                                        Figure 1




                                                   3
                                  NPS Foreign Travel by Region
                                     FY 2002 and FY 2003

 Region                                                  2002 (GAO)1/          2003 (NPS)2/
 Alaska Region                                                 $17,635              $46,204
 Intermountain Region                                            5,833               28,188
 Northeast Region 3/                                           23,495                17,989
 Mid-West Region                                               14,305                 5,283
 National Capital Region                                        5,577                18,638
 Pacific West Region                                           27,760                33,908
 South East Region                                              4,053                22,952
                                                                          4/                     4/
    Subtotal regional offices                                 $98,658              $173,162
                                                                                                 5/
 Washington, D.C.                                             110,910               134,227
  Total                                                      $209,568              $307,389

 1/
      Estimated travel costs provided to GAO by NPS - Report No. GAO-03-354.
 2/
      Reported actual travel costs provided to OIG by NPS.
 3/
    Formally Mid-Atlantic Region.
 4/
    National Park units foreign travel expenses of $16,842 have been excluded for GAO comparison
 purposes.
 5/
    Based on our review of travel vouchers for foreign travel by the Washington, DC Office for FY
 2003, we increased NPS reported travel costs by $27,570. We did not review any travel vouchers for
 foreign travel for the other regions or offices.
                                                                                           Figure 2

STATUS OF THE GAO RECOMMENDATIONS
NPS has not implemented any of GAO’s three recommendations.
Furthermore, our difficulty in obtaining information on the costs of domestic
and foreign travel clearly demonstrates that NPS still does not have an
effective system to identify and segregate its travel costs by type of travel - a
full year after the issuance of the GAO report.

NPS Still Cannot Track Travel Costs

GAO Recommendation 1 - Establish procedures for capturing travel data,
including travel type and purpose, as required by the Federal Travel
Regulations.



                                                     4
Status - Not implemented. NPS is currently converting to a new automated
travel system, “Travel Manager,” that should significantly improve the
integrity and completeness of the travel cost information. The new travel
system is web-based, and NPS believes it will enable them to utilize its
accounting system to sort their travel by type and purpose. We were told
that the NPS target date for implementing Travel Manager is now scheduled
for April 2004. Based on our review, we believe this date is unrealistic.

NPS Does Not Process Foreign Travel Vouchers Electronically

GAO Recommendation 2 - Enforce existing policy that requires all foreign
travel vouchers to be processed electronically.

Status - Not implemented. NPS initially claimed that this recommendation
would be implemented by October 2003 because the NPS planned to require
all travel vouchers for foreign travel to be received, processed, and stored at
the Accounting Operations Center (AOC).1 However, this requirement has
not been implemented.

Contrary to its assertions, AOC does not electronically process all foreign
travel vouchers. The AOC merely collects and processes foreign travel
vouchers for Headquarters employees only, not all NPS travelers. In
addition, travel vouchers are still processed manually. The NPS said that
while it is not electronically processing the vouchers, it does store all
vouchers for foreign travel in a central location. However, we found that
only the Headquarters travel vouchers were stored at the central location.
For example, in August 2003, we requested that NPS provide us with a
record of foreign travel taken during FY 2003. AOC could not generate the
data and had to request it from the regional offices. We also determined that
AOC was not accurately accumulating foreign travel costs for the
Headquarters Office. When we finally obtained copies of foreign travel
vouchers for the Headquarters Office, we found its travel expenses exceeded
the amount NPS initially reported to us by about 11 percent.

We also determined that each of the foreign travel trips for Headquarters
employees were more expensive than indicated in the initial details provided
by the NPS. Specifically, the travel expenses provided by NPS did not

1
 According to NPS, the only exception to this policy is for trips to Canada and Mexico
that do not require an overnight stay.


                                           5
include any costs that were direct-billed to the Government, such as airfare
and rental car expenses. We calculated that the cost data provided for
Headquarters in FY 2003 was understated by $27,570. The data NPS gave
us for FY 2004 was also inaccurate. AOC initially gave us a listing showing
four trips that totaled $6,744. We questioned the accuracy of these figures
and then obtained the actual copies of the travel vouchers for the
Headquarters employees and found that there were eight trips, at a cost of
$17,001. Thus, the first quarter FY 2004 data were understated by $10,257.

When we asked NPS officials if similar underreporting was likely to occur
in other regions, NPS responded that its regions are responsible for
accurately recording their travel data into the accounting system. NPS could
provide no assurance that this underreporting was not widespread. Without
reconciling data provided by the regions with the actual foreign travel
vouchers, we cannot be assured that the foreign travel expenses NPS
provided to us are accurate.

Based on our efforts to obtain foreign travel expenses for FY 2003 and the
first 3 months of FY 2004, we concluded that NPS still cannot accurately
report on the number and costs of foreign travel.

NPS Needs an Automated Travel System to Adequately
Address Federal Requirements

GAO Recommendation 3 - Address federal travel system requirements
when designing and implementing the travel system scheduled for
completion in FY 2003.

Status - Not implemented. NPS has informed us that it is currently training
personnel on the implementation of the new automated “Travel Manager.”
Although NPS does not centrally maintain training records, officials
indicated that Headquarters and the Northeast Region Office employees
have not yet been trained on the web-based Travel Manager system and only
some of the other regional employees have received training. However,
until the design and implementation of the automated travel system is
complete, NPS cannot satisfy, or even begin to address, federal
requirements. We therefore consider this recommendation not implemented.




                                     6
NPS Statistics on Foreign Travel
As the Subcommittee requested, we have provided statistics for both NPS as
a whole and the Headquarters Office. NPS gave us information on all
foreign travel for FYs 2003 and 2004 (first quarter only). We also reviewed
individual foreign travel vouchers for all Headquarters employees. We
compared the information NPS provided for the Headquarters Office to the
information on the individual travel vouchers. As indicated above, we
determined that NPS information was not accurate, and, therefore, we had to
recompute costs for Headquarters. We were unable to perform the same
review for the other NPS offices because of decentralized recordkeeping.

During FY 2003, 172 employees made 194 trips to foreign locations, costing
$324,231. During the first quarter of FY 2004, 20 employees made 21 trips
to foreign locations, costing $28,413. A summary of NPS’ total cost
expended for foreign travel and the number of travelers and trips is shown in
Figure 3 below.
Region                Employees            Trips                Cost
                        FY       FY          FY       FY           FY           FY
                       2003     2004        2003     2004         2003         2004
Alaska                    21         3          25          3      48,891       1,629
Intermountain             31         3          33          3      34,313       3,723
Northeast                 20         0          26          0      17,989           0
Midwest                     7        4           8          4      11,805       1,023
National Capital            9        0           9          0      18,638           0
 Region
Pacific West               30         2        31           2     35,416        1,266
Southeast                  12         1        13           1     22,952        3,771
Washington Area            42         7        49           8   $134,227      $17,001
 Service Office

Totals                    172        20       194        21     $324,231       $28,413
                                                                            Figure 3

The reason most cited for foreign travel in FY 2003 and for the first quarter
of FY 2004 was to attend meetings, which was followed by conferences.
Therefore, over the past 15 months, 56 percent of NPS foreign travel costs
incurred have been for employees to attend a meeting or conference abroad.
Figures 4 and 5 show the total number of foreign trips taken, the cost of
those trips, and the purpose for the trip. Interestingly enough, foreign travel
to provide technical assistance makes up less than 1 percent of the travel.


                                       7
                                           The Purpose of All Employee Travel to Foreign Countries
                                                               Fiscal Year 2003
                                                                                $ of travel                 # of trips
              $120,000                                                                                                                                                      60
                             $107,559
                                    56
              $100,000                                                                                                                                                      50


                                                 $74,591
               $80,000                                                                                                                                                      40
$ of Travel




                                                                                                                                                                                         # of Trips
                                                           32
               $60,000                                                                                                                                                      30
                                                                      26
                                                                                     24
                                                                                                     21
               $40,000                                                                                                                                                      20
                                                                $26,563         $28,696         $29,086
                                                                                                                      12               11                     $21,102
                                                                                                                                                 $15,848
               $20,000                                                                                                                                                      10
                                                                                                              $11,621          $9,164                  7
                                                                                                                                                                    5

                    $0                                                                                                                                                      0
                              gs




                                                                                                ns




                                                                                                                                                              ns
                                                 es




                                                                                                                 s
                                                                                s




                                                                                                                                                 ps
                                                                ns




                                                                                                                                   s
                                                                                                             sit
                                                                             ng




                                                                                                                              ce
                                               c
                            tin




                                                                                            io




                                                                                                                                                              io
                                                                                                                                             ho
                                                                io
                                            en




                                                                                                                              an
                                                                                                           Vi
                                                                           ni



                                                                                           at




                                                                                                                                                           at
                                                            iss




                                                                                                                                            ks
                         ee




                                             r




                                                                           ai




                                                                                                                           ist




                                                                                                                                                          g
                                                                                            t



                                                                                                        te
                                          fe



                                                       lM




                                                                                         en
                        M




                                                                                                                                        or



                                                                                                                                                       le
                                                                       Tr




                                                                                                                       ss
                                                                                                      Si
                                      on




                                                                                                                                                      De
                                                                                     es




                                                                                                                                       W
                                                                                                                       A
                                                       ia
                                   C




                                                                                    Pr
                                                      ec




                                                                                                                      l
                                                                                                                   ca
                                                 Sp




                                                                                                                 ni
                                                                                                             ch
                                                                                                           Te




                                                                                                                                                           Figure 4

                                          The Purpose of All Employee Travel to Foreign Countries
                                                     First Quarter of Fiscal Year 2004
                                                                                $ of travel               # of trips

              $14,000                                                                                                                                                   9

                                      8
                                                                                                                                                                        8
              $12,000       $11,777

                                                                                                                                                                        7
              $10,000
                                                                                                                                                                        6

               $8,000
$ of Travel




                                                                                                                                                                            # of Trips




                                                                                                                                                                        5

                                                                  4                                                                $6,198
               $6,000                                                                                                                                                   4

                                                                                     3                       3
                                                            $4,052          $4,127                                                                                      3
               $4,000
                                                                                                                                        2
                                                                                                                                                                        2
                                                                                                          $1,979
               $2,000
                                                                                                                                                              1         1
                                                                                                                                                           $279
                  $0                                                                                                                                                    0
                              Meetings                Conferences           Presentations            Delegations               Trainings              Site Visits


                                                                                                                                                           Figure 5




                                                                                            8
Canada was the foreign country most visited by NPS travelers with 67
visits in FY 2003, costing $56,804, and 7 visits in FY 2004, costing
$3,146. Headquarters employees accounted for 10 of the 67 trips to
Canada and $16,595 of the $56,804 cost in FY 2003. As of February
2004, there had been no trips to Canada during the current fiscal year.
Other countries visited by NPS employees include Mexico, Russia,
France, South Africa, and the United Kingdom. Appendix 2 contains a
complete listing, sorted by traveler, of the foreign travel taken over the
past 15 months.

We reviewed the foreign travel expenses and found that the Headquarters
Office, while only comprising 13 percent of NPS staff, took 25 percent
(49 trips) and spent 41 percent ($134,227) of the travel costs to foreign
locations during FY 2003 (Figures 6 and 7).
                                      Foreign Travel Trips
                                        Fiscal Year 2003


                                                    Headquarters
                                       1/
                               Regions              49 trips 25%
                               145 trips
                                 75%




           1/
            Regions:
           1) Pacific West    5) Southwest
           2) Intermountain   6) National Capital
           3) Alaska          7) Northeast
           4) Midwest

                                                                    Figure 6

                                 Total Foreign Travel Costs
                                      Fiscal Year 2003




                               Regions                       Headquarters
                               $190,004                       $134,227
                                 59%                            41%




                                                                    Figure 7


                                            9
This trend of spending has continued during the first quarter of FY 2004.
Our analysis shows that the Headquarters Office has taken 8 of the 21
foreign trips (38 percent) and spent $17,001 (60 percent) of the foreign
travel dollars spent through the end of the first quarter in FY 2004
(Figures 8 and 9).

                                    Foreign Travel Trips
                                      First Quarter of
                                      Fiscal Year 2004

                                                       Headquarters
                            Regions                       8 trips
                            13 trips                       38%
                             62%




                                                                      Figure 8

                              Total Foreign Travel Costs
                                   First Quarter of
                                   Fiscal Year 2004




                          Regions                      Headquarters
                          $11,412                        $17,001
                           40%                            60%




                                                                      Figure 9




                                       10
                                                                     Appendix 1


                           NPS Foreign Travel by Region
                        FY 2003 and First Quarter of FY 2004
        Office          Last      First        Country    Traveler     Office    Region
                        Name      Name                     Total       Total       Total
WASO                                                                            $151,228
AD Visitor &
                                           South Africa     $4,396     $4,396
Resource Program
Administration                             Argentina        $3,165     $3,165
Alaska Division                            Argentina        $1,789     $1,789
Assistant Secretary
                                           France           $4,105     $4,105
Fish, Wildlife, Parks
Concessions
                                           Argentina        $2,961     $2,961
Management
Cultural Resources                         Canada             $895
Cultural Resources                         Italy            $3,187
Cultural Resources                         Italy            $1,385
Cultural Resources                         France           $3,074
Cultural Resources                         Canada           $1,017
Cultural Resources                         Canada               $0
Cultural Resources                         Canada           $1,346
Cultural Resources                         Canada             $713
Cultural Resources                         Spain            $1,966    $13,584
Denver Service Center                      Guatemala        $3,072
Denver Service Center                      Qatar                $0
Denver Service Center                      Qatar                $0     $3,072
Director's Office                          Canada               $0
Director's Office                          France           $3,518
Director's Office                          South Africa     $4,435
Director's Office                          China            $6,872
Director's Office                          France           $2,778    $17,602
Fire and Aviation                          Australia        $1,342     $1,342
Fire Management                            Australia        $2,861
Fire Management                            Australia        $2,711     $5,572

HABS/HAER Div                              Mexico           $2,123
HABS/HAER Div                              France           $2,617     $4,740
Harper's Ferry                             France               $0         $0
Historic Preservation                      United
                                                            $2,427
Training Center                            Kingdom



                                          11
                                                                     Appendix 1

                           NPS Foreign Travel by Region
                        FY 2003 and First Quarter of FY 2004
        Office          Last      First        Country    Traveler     Office   Region
                        Name      Name                     Total       Total     Total
Historic Preservation
                                           Spain            $2,046     $4,473
Training Center
International Affairs                      China            $6,967
International Affairs                      France           $3,625
International Affairs                      France           $3,670
International Affairs                      South Africa     $4,989
International Affairs                      France           $3,213
International Affairs                      France           $2,886
International Affairs                      Mexico           $1,734    $27,083
Long Distant Trails                        Mexico           $1,495     $1,495
National Capital
Region - travel for                        Spain            $3,338     $3,338
WASO
Natural Resources                          Canada           $4,736
Natural Resources                          South Africa     $5,270
Natural Resources                          Canada           $4,233
Natural Resources                          Mexico           $4,491
Natural Resources                          Honduras         $1,937
Natural Resources                          Canada           $2,050
Natural Resources                          South Africa     $4,565
Natural Resources                          China            $6,912
Natural Resources                          Canada           $1,606    $35,799
Professional Services                      Bahamas              $0         $0
Public Affairs                             Italy            $1,055     $1,055
Section B HPTC                             Germany          $2,970     $2,970
Southeast
                                           Italy            $4,499
Archeological Center
Southeast
                                           France           $3,374     $7,873
Archeological Center
                                           United
Tourism                                                     $3,162     $3,162
                                           Kingdom
Headquarters                               Japan              $172
Headquarters                               Mexico           $1,480     $1,652
                                           United
U.S. Park Police                                               $0         $0
                                           Kingdom
NORTHEAST                                                                       $17,989
Assateague Island NS                       Qatar               $0         $0


                                          12
                                                                     Appendix 1

                           NPS Foreign Travel by Region
                        FY 2003 and First Quarter of FY 2004
       Office           Last      First        Country   Traveler      Office   Region
                        Name      Name                    Total        Total     Total
Boston Support Office                      Canada            $42
Boston Support Office                      Canada            $42
Boston Support Office                      Canada            $42
Boston Support Office                      Canada            $42        $168
New Bedford Whaling
                                           Portugal            $0
NHP
New Bedford Whaling
                                           Portugal            $0         $0
NHP
Northeast Regional
                                           Italy           $3,455
Office
Northeast Regional                         United
                                                           $2,056
Office                                     Kingdom
Northeast Regional
                                           Canada          $2,302
Office
Northeast Regional
                                           Canada           $127
Office
Northeast Regional
                                           Honduras         $303
Office
Northeast Regional
                                           Canada          $1,214
Office
Northeast Regional
                                           Canada          $2,023
Office
Northeast Regional
                                           Canada              $42
Office
Northeast Regional
                                           Canada           $127
Office
Northeast Regional
                                           Canada           $127
Office
Northeast Regional
                                           Canada           $637
Office
Northeast Regional
                                           Canada              $64    $12,478
Office
Philadelphia Support
                                           Botswana        $4,821      $4,821
Office
Sagamore Hill NHS                          Costa Rica           $0        $0
Shenandoah National
                                           Croatia             $0
Park
Shenandoah National
                                           Croatia             $0
Park
Shenandoah National
                                           Croatia             $0         $0
Park


                                          13
                                                                    Appendix 1

                          NPS Foreign Travel by Region
                       FY 2003 and First Quarter of FY 2004
        Office         Last      First        Country   Traveler      Office   Region
                       Name      Name                    Total        Total     Total
Southeast
                                          Canada           $247
Archeological Center
Southeast
                                          Honduras         $275        $522
Archeological Center
NATIONAL
                                                                               $18,638
CAPITAL
Frederick Douglass                        United
                                                          $2,513      $2,513
NHS                                       Kingdom
National Capital
                                          Costa Rica           $0
Regional Office
National Capital
                                          Canada          $1,856
Regional Office
National Capital                          United
                                                          $2,980
Regional Office                           Kingdom
National Capital
                                          Canada              $78
Regional Office
National Capital                          United
                                                          $2,854
Regional Office                           Kingdom
National Capital
                                          Guatemala       $4,590
Regional Office
National Capital
                                          Ecuador         $1,185     $13,542
Regional Office
                                          United
National Mall                                             $2,583      $2,583
                                          Kingdom
MID WEST                                                                       $12,828
Apostle Islands NL                        Canada               $0        $0
Badlands National
                                          Georgia         $4,901      $4,901
Park
Isle Royale National
                                          Canada          $1,622      $1,622
Park
Midwest Regional
                                          Canada           $349
Office
Midwest Regional
                                          Canada           $373
Office
Midwest Regional
                                          Canada           $279
Office
Midwest Regional
                                          Japan               $21
Office


                                         14
                                                                    Appendix 1

                          NPS Foreign Travel by Region
                       FY 2003 and First Quarter of FY 2004
       Office          Last      First        Country    Traveler     Office   Region
                       Name      Name                     Total       Total     Total
Midwest Regional
                                          Canada           $1,360     $2,382
Office
Network to Freedom                        Canada           $1,304
Network to Freedom                        Canada           $1,179     $2,483
Pea Ridge NMP                             Canada               $0         $0
Saint Croix NSR                           Canada           $1,440     $1,440
SOUTHEAST                                                                      $26,723
BISC                                      Croatia          $3,723     $3,723
GRSM                                      Honduras           $277      $277
Southeast
                                          Denmark          $3,771     $3,771
Archeological Center
Southeast                                 United
                                                           $1,157
Archeological Center                      Kingdom
Southeast
                                          Australia        $3,008
Archeological Center
Southeast                                 United
                                                           $4,055
Archeological Center                      Kingdom
Southeast
                                          Mexico           $1,901    $10,120
Archeological Center
Southeast Regional
                                          Italy            $2,047
Office
Southeast Regional
                                          Grenada           $930
Office
Southeast Regional
                                          South Africa      $742
Office
Southeast Regional
                                          Canada           $2,789
Office
Southeast Regional
                                          Canada            $930
Office
Southeast Regional
                                          Canada            $604
Office
Southeast Regional
                                          Dominica          $790      $8,833
Office
PACIFIC WEST                                                                   $36,682
Big Hole Battlefield                      Canada               $0
Big Hole Battlefield                      Canada               $0
Big Hole Battlefield                      Canada           $1,330
Big Hole Battlefield                      Canada               $0     $1,330



                                         15
                                                                     Appendix 1

                           NPS Foreign Travel by Region
                        FY 2003 and First Quarter of FY 2004
       Office           Last      First        Country    Traveler     Office   Region
                        Name      Name                     Total       Total     Total
Channel Islands
                                           France              $0         $0
National Park
Columbia Cascades
                                           Italy            $2,368     $2,368
SO
Lake Mead NRA                              Australia         $337       $337
Lava Beds NM                               Peru             $5,179
Lava Beds NM                               Costa Rica           $0     $5,179
Mount Rainier
                                           Japan             $927
National Park
Mount Rainier
                                           Japan             $581      $1,507
National Park
North Cascades
                                           Honduras            $0         $0
National Park
Pacific Great Basin
                                           Micronesia       $4,673
SO
Pacific Great Basin
                                           Spain               $0      $4,673
SO
Pacific West Regional
                                           Canada            $515
Office
Pacific West Regional
                                           Australia         $751
Office
Pacific West Regional
                                           Tanzania         $4,084
Office
Pacific West Regional
                                           Georgia             $0
Office
Pacific West Regional
                                           Spain             $140
Office
Pacific West Regional
                                           Uganda           $2,795
Office
Pacific West Regional
                                           South Africa     $4,899
Office
Pacific West Regional
                                           South Africa     $4,464
Office
Pacific West Regional
                                           Canada            $923     $18,571
Office
Point Reyes NS                             Honduras             $0
Point Reyes NS                             Guatemala        $2,644     $2,644
San Juan Island NHP                        Canada              $72        $72
Santa Monica
                                           Spain               $0         $0
Mountains NRA


                                          16
                                                                       Appendix 1

                            NPS Foreign Travel by Region
                         FY 2003 and First Quarter of FY 2004
       Office            Last      First        Country     Traveler     Office   Region
                         Name      Name                      Total       Total     Total
Sequoia National Park                       Japan                 $0
Sequoia National Park                       Honduras              $0        $0
Yosemite National
                                            Australia            $0
Park
Yosemite National
                                            Australia            $0
Park
Yosemite National
                                            Australia            $0
Park
Yosemite National
                                            Australia            $0         $0
Park
INTERMOUNTAIN                                                                     $38,036
Bandelier NM                                Honduras            $387      $387
Chiricahua NM                               Mexico            $1,353    $1,353
El Malpais NM                               Chile             $2,612    $2,612
Fort Collins                                Canada            $1,274
Fort Collins                                Canada            $2,000    $3,274
Glacier National Park                       Canada              $374
Glacier National Park                       Canada              $374
Glacier National Park                       Canada              $374
Glacier National Park                       Canada                $0
Glacier National Park                       Canada              $374
Glacier National Park                       Canada                $0
Glacier National Park                       Canada                $0    $1,496
Grand Canyon
                                            Liechtenstein     $2,000
National Park
Grand Canyon
                                            Canada            $1,647    $3,647
National Park
Intermountain Cultural
                                            Chile             $2,612    $2,612
Resource Center
Intermountain Region                        Mexico             $109
Intermountain
                                            Mexico             $109
Regional Office
Intermountain
                                            Canada             $406
Regional Office
Intermountain
                                            Mexico             $245
Regional Office
Intermountain
                                            South Africa      $6,024
Regional Office
Intermountain                               Mexico            $1,335


                                           17
                                                                    Appendix 1

                          NPS Foreign Travel by Region
                       FY 2003 and First Quarter of FY 2004
       Office          Last      First        Country   Traveler      Office   Region
                       Name      Name                    Total        Total     Total
Regional Office
Intermountain
                                          Tanzania        $4,829
Regional Office
Intermountain
                                          Japan               $68
Regional Office
Intermountain
                                          Mexico           $129
Regional Office
Intermountain
                                          Mexico          $1,341
Regional Office
Intermountain
                                          Mexico          $1,765
Regional Office
Intermountain
                                          Mexico           $617      $16,977
Regional Office
Organ Pipe Cactus
                                          Mexico          $1,012
NM
Organ Pipe Cactus
                                          Mexico              $0
NM
Organ Pipe Cactus
                                          Mexico          $1,044
NM
Organ Pipe Cactus
                                          Mexico              $0
NM
Organ Pipe Cactus
                                          Mexico          $1,044      $3,100
NM
Southeast
                                          Mexico          $1,172      $1,172
Archeological Center
US/Mexico Affairs
                                          Mexico           $424        $424
Office
Yellowstone National
                                          Canada           $193
Park
Yellowstone National
                                          Mexico           $790        $983
Park
ALASKA                                                                         $50,520
Alaska Regional
                                          Canada           $982
Office
Alaska Regional
                                          Canada           $249
Office
Alaska Regional
                                          Canada           $398
Office
Alaska Regional
                                          Russia          $3,897
Office
Alaska Regional                           Congo           $9,315


                                         18
                                                                    Appendix 1

                          NPS Foreign Travel by Region
                       FY 2003 and First Quarter of FY 2004
       Office          Last      First        Country   Traveler      Office   Region
                       Name      Name                    Total        Total     Total
Office
Alaska Regional
                                          Canada           $309
Office
Alaska Regional
                                          Russia           $804
Office
Alaska Regional
                                          Canada           $534
Office
Alaska Regional
                                          Russia          $1,188
Office
Alaska Regional
                                          Russia          $4,433
Office
Alaska Regional
                                          Finland         $5,598
Office
Alaska Regional
                                          Russia          $1,263
Office
Alaska Regional
                                          Canada          $1,628
Office
Alaska Regional
                                          Canada           $991
Office
Alaska Regional
                                          Russia          $4,081
Office
Alaska Regional
                                          Russia          $1,381
Office
Alaska Regional
                                          Russia          $4,058
Office
Alaska Regional
                                          Russia           $995
Office
Alaska Regional
                                          Russia          $1,254     $43,354
Office
Denali National Park                      Canada          $1,145
Denali National Park                      Canada          $1,313      $2,458
Gates of the Arctic                       Canada            $387
Gates of the Arctic                       Canada          $1,159      $1,546
Klondike Gold Rush
                                          Canada              $88
NHP
Klondike Gold Rush
                                          Canada              $0        $88
NHP

Western Arctic                            Canada          $1,423
Parklands


                                         19
                                                                 Appendix 1

                        NPS Foreign Travel by Region
                     FY 2003 and First Quarter of FY 2004
        Office       Last      First        Country   Traveler     Office    Region
                     Name      Name                    Total       Total      Total
Western Arctic
                                        Canada          $1,423     $2,845
Parklands
Wrangell-St. Elias
                                        Canada           $229       $229
National Park
Rounding                                                  ($9)       ($9)       ($9)
 Totals                                               $352,644   $352,644   $352,644




                                       20
                                                                                Appendix 2
                          NPS Travelers to Foreign Countries
                         FY 2003 and First Quarter of FY 2004

Last Name   First Name                      Office                  Country           Total
                            Intermountain Regional                  Mexico           $1,341
1/
                            Point Reyes NS                          Honduras             $0
                            Alaska                                  Canada             $982
                            Alaska Regional Office                  Russia           $3,897
                            Alaska Regional Office                  Congo            $9,315
                            HABS/HAER Div                           Mexico           $2,123
                            Alaska Regional Office                  Canada             $309
                            Southeast Archeological Center          Italy            $4,499
                            Southeast Archeological Center          France           $3,374
                            Public Affairs                          Italy            $1,055
                            Organ Pipe Cactus NM                    Mexico           $1,012
                            Midwest Regional                        Canada             $349
                            Pacific West Regional Office            Tanzania         $4,084
                            Historic Preservation Training Center   United Kingdom   $2,427
                            Denver Service Center                   Guatemala        $3,072
                            Alaska Regional Office                  Russia             $804
                            Southeast Regional Office               Italy            $2,047
1/
                            Harper's Ferry                          France               $0
1/
                            Professional Services                   Bahamas             $0
1/
                            U.S. Park Police                        United Kingdom      $0
                            Intermountain Cultural Resource         Chile            $2,612
                            Center
                            Pacific West                            Canada            $515
                            Alaska Regional Office                  Canada            $534
                            Southeast Archeological Center          Canada            $247
1/
                            Sequoia NP                              Japan               $0
                            Northeast Regional Office               Italy            $3,455
                            Lake Meas NRA                           Australia         $337
                            Cultural Resources                      Canada             $895
                            Alaska                                  Canada             $249
                            Southeast Regional Office               Grenada            $930
                            International Affairs                   China            $6,967
                            International Affairs                   France           $3,625
                            International Affairs                   France           $3,670



                                               21
                                                                              Appendix 2
                          NPS Travelers to Foreign Countries
                         FY 2003 and First Quarter of FY 2004


Last Name   First Name                      Office             Country              Total
                            International Affairs              South Africa        $4,989
                            Cultural Resources                 Italy               $3,187
                            Cultural Resources                 Italy               $1,385
1/
                            Organ Pipe Cactus NM               Mexico                  $0
                            Glacier National Park              Canada                $374
                            Southeast Archeological Center     Honduras              $275
                            Pacific Great Basin SO             Micronesia          $4,673
                            Natural Resources                  Canada              $4,736
                            Natural Resources                  South Africa        $5,270
1/
                            Apostle Islands NL                 Canada                  $0
1/
                            Director                           Canada                 $0
                            Cultural Resources                 France              $3,074
1/
                            Yosemite National Park             Australia               $0
                            SEAC                               United Kingdom      $1,157
                            Frederick Douglass NHS             United Kingdom      $2,513
                            Fort Collins                       Canada              $1,274
                            Bandelier NM                       Honduras              $387
1/
                            Big Hole Battlefield               Canada                  $0
1/
                            Sagamore Hill NHS                  Costa Rica             $0
                            Mount Rainier NP                   Japan                 $927
                            Western Arctic Parklands           Canada              $1,423
                            Intermountain Region               Mexico                $109
                            Intermountain Region               Mexico                $109
                            Alaska Regional Office             Russia              $1,188
                            Alaska Regional Office             Russia              $4,433
                            Columbia Cascades SO               Italy               $2,368
                            Northeast Regional Office          United Kingdom      $2,056
                            Alaska Regional Office             Finland             $5,598
                            Klondike Gold Rush NHP             Canada                 $88
                            Northeast Regional Office          Canada              $2,302
                            Midwest Regional                   Canada                $373
                            Isle Royale NP                     Canada              $1,622
1/
                            National Capital Regional Office   Costa Rica              $0
                            Natural Resources                  Canada              $4,233


                                            22
                                                                              Appendix 2
                          NPS Travelers to Foreign Countries
                         FY 2003 and First Quarter of FY 2004


Last Name   First Name                    Office               Country              Total
                            Yellowstone National Park          Canada               $193
1/
                            Klondike Gold Rush NHP             Canada                 $0
                            Alaska Division                    Argentina           $1,789
                            Southeast                          Denmark             $3,771
                            National Mall                      United Kingdom      $2,583
                            Northeast Regional Office          Canada                $127
                            Glacier National Park              Canada                $374
                            National Capital Regional Office   Canada              $1,856
                            Unknown HQ                         France              $4,105
                            Glacier National Park              Canada                $374
                            Alaska Regional Office             Russia              $1,263
1/
                            Yosemite National Park             Australia               $0
                            Unknown HQ                         Mexico              $4,491
                            Alaska Regional Office             Canada              $1,628
1/
                            Channel Islands NP                 France                  $0
1/
                            Pacific West Regional Office       Georgia                $0
1/
                            Yosemite National Park             Australia              $0
                            SEAC                               Australia           $3,008
                            Unknown HQ                         Argentina           $2,961
                            Intermountain Region               Canada                $406
                            Southeast Regional Office          South Africa          $742
                            Natural Resources                  Honduras            $1,937
                            Director                           France              $3,518
                            Director's Office                  France              $2,778
                            Nat'l Capital Reg. Office          Spain               $3,338
                            Saint Croix NSR                    Canada              $1,440
1/
                            Glacier National Park              Canada                  $0
                            Western Arctic Parklands           Canada              $1,423
                            Long Distant Trails                Mexico              $1,495
                            Midwest Regional                   Canada                $279
1/
                            North Cascades NP                  Honduras                $0
                            Lava Beds NM                       Peru                $5,179
1/
                            Lava Beds NM                       Costa Rica              $0



                                            23
                                                                                 Appendix 2
                          NPS Travelers to Foreign Countries
                         FY 2003 and First Quarter of FY 2004


Last Name   First Name                     Office                 Country              Total
                            HABS/HAER Div                         France              $2,617
                            National Capital Regional Office      United Kingdom      $2,980
                            Cultural Resources                    Canada              $1,017
                            Southeast Regional Office             Canada              $2,789
1/
                            Pacific Great Basin SO                Spain                   $0
                            El Malpais NM                         Chile               $2,612
                            Midwest Regional                      Japan                  $21
                            Boston Support Office                 Canada                 $42
                            Intermountain Region                  Mexico                $245
                            Director                              South Africa        $4,435
                            Intermountain Region                  South Africa        $6,024
                            National Capital Regional Office      Canada                 $78
1/
                            Cultural Resources                    Canada                  $0
                            Point Reyes NS                        Guatemala           $2,644
1/
                            Sequoia NP                            Honduras                $0
                            Historic Preservation Training Ctr.   Spain               $2,046
                            Denali National Park                  Canada              $1,145
                            Cultural Resources                    Canada              $1,346
                            Alaska Regional Office                Canada                $991
                            Intermountain Regional                Mexico              $1,765
                            Network to Freedom                    Canada              $1,304
                            Network to Freedom                    Canada              $1,179
                            Midwest Regional Office               Canada              $1,360
                            Northeast Regional Office             Honduras              $303
                            Northeast Regional Office             Canada              $1,214
                            International Affairs                 France              $3,213
                            International Affairs                 France              $2,886
                            International Affairs                 Mexico              $1,734
1/
                            Shenandoah National Park              Croatia                 $0
1/
                            Shenandoah National Park              Croatia                $0
1/
                            Shenandoah National Park              Croatia                $0
                            Northeast Regional Office             Canada              $2,023
                            Northeast Regional Office             Canada                 $42
                            Director                              China               $6,872


                                             24
                                                                          Appendix 2
                      NPS Travelers to Foreign Countries
                     FY 2003 and First Quarter of FY 2004


Last Name   First Name                  Office            Country               Total
                         Pacific West Regional Office     Spain                 $140
                         Unknown HQ                       Japan                 $172
                         Pacific West Regional Office     Uganda               $2,795
                         Gates of the Arctic              Canada                $387
                         Northeast Regional Office        Canada                 $127
                         Cultural Resources               Canada                 $713
                         BISC                             Croatia              $3,723
                         US/Mexico Affairs Office         Mexico                 $424
                         Intermountain Region             Mexico               $1,335
                         Southeast Archeological Center   Mexico               $1,901
                         Glacier National Park            Canada                 $374
                         Pacific West Regional Office     South Africa         $4,899
                         Administration                   Argentina            $3,165
                         Organ Pipe Cactus NM             Mexico               $1,044
1/
                         Organ Pipe Cactus NM             Mexico                   $0
                         Big Hole Battlefield             Canada               $1,330
1/
                         Big Hole Battlefield             Canada                   $0
1/
                         Denver Service Center            Qatar                   $0
                         Grand Canyon NP                  Liechtenstein        $2,000
                         Intermountain Region             Tanzania             $4,829
1/
                         Glacier National Park            Canada                   $0
                         Gates of the Arctic              Canada               $1,159
                         Wrangell-St. Elias NP            Canada                 $229
                         Philadelphia Support Office      Botswana             $4,821
                         Fire and Aviation                Australia            $1,342
                         Alaska                           Canada                 $398
                         Alaska Regional Office           Russia               $4,081
                         Alaska Regional Office           Russia               $1,381
1/
                         Glacier National Park            Canada                   $0
                         Fire Management                  Australia            $2,861
                         Section B HPTC                   Germany              $2,970
                         Boston Support Office            Canada                  $42
1/
                         Yosemite National Park           Australia                $0



                                         25
                                                                           Appendix 2
                          NPS Travelers to Foreign Countries
                         FY 2003 and First Quarter of FY 2004


Last Name   First Name                    Office               Country           Total
1/
                            New Bedford Whaling NHP            Portugal            $0
1/
                            New Bedford Whaling NHP            Portugal            $0
                            Southeast Archeological Center     Mexico           $1,172
                            Unknown HQ                         Mexico           $1,480
                            Boston Support Office              Canada              $42
1/
                            Santa Monica Mountains NRA         Spain                $0
1/
                            Pea Ridge NMP                      Canada              $0
                            Pacific West                       Australia          $751
                            Cultural Resources                 Spain            $1,966
                            Northeast Regional Office          Canada             $127
                            Boston Support Office              Canada              $42
                            SEAC                               United Kingdom   $4,055
                            National Capital Regional Office   United Kingdom   $2,854
                            Natural Resources                  Canada           $2,050
                            Natural Resources                  South Africa     $4,565
                            National Capital Regional Office   Guatemala        $4,590
                            National Capital Regional Office   Ecuador          $1,185
                            Denali National Park               Canada           $1,313
                            GRSM                               Honduras           $277
                            Badlands National Park             Georgia          $4,901
                            Yellowstone National Park          Mexico             $790
                            Southeast Regional Office          Canada             $930
                            SERO                               Canada             $604
                            AD Visitor and Resource Program    South Africa     $4,396
                            Intermountain Regional             Mexico             $617
                            Organ Pipe Cactus NM               Mexico           $1,044
                            Tourism                            United Kingdom   $3,162
                            Fort Collins                       Canada           $2,000
                            Pacific West Regional Office       South Africa     $4,464
                            Mount Rainier NP                   Japan              $581
1/
                            Denver Service Center              Qatar                $0




                                            26
                                                                            Appendix 2
                               NPS Travelers to Foreign Countries
                              FY 2003 and First Quarter of FY 2004


Last Name        First Name                     Office          Country              Total
                                 Intermountain Region           Japan                  $68
                                 San Juan Island NHP            Canada                 $72
                                 Northeast Regional Office      Canada                $637
                                 Northeast Regional Office      Canada                 $64
                                 Natural Resources              China               $6,912
                                 Pacific West Regional Office   Canada                $923
                                 Alaska Regional Office         Russia              $4,058
                                 Alaska Regional Office         Russia                $995
1/
                                 Big Hole Battlefield           Canada                  $0
                                 Chiricahua NM                  Mexico              $1,353
                                 Grand Canyon NP                Canada              $1,647
                                 Natural Resources              Canada              $1,606
                                 Southeast Regional Office      Dominica              $790
                                 Fire Management                Australia           $2,711
                                 Alaska Regional Office         Russia              $1,254
                                 Intermountain Region           Mexico                $129
1/
                                 Assateague Island NS           Qatar                   $0
                                                                                      $(9)

Total                                                                          $352,644
1/
   Costs reimbursed by another agency.

        Names of employees have been redacted pursuant to exemption (b)(6) of the
        Freedom of Information Act.




                                                 27
